UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART IJ.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: January 20, 2021
Mr. Cooper David Bowen
Mr. Eric Adam Munas
Ms. Pamela J. Sears
Hamilton County Prosecutor's Office
230 E. Ninth Street
Suite 4000
Cincinnati, OH 45202
Mr. Brandon Bowie
1608 Brentnell Avenue
Columbus, OH 43219
Ms. Lindsay M. Upton
Ms. Lisa M. Zaring
Montgomery Jonson
600 Vine Street
Suite 2650
Cincinnati, OH 45202

Re: Case No. 20-3743, Brandon Bowie v. Hamilton County Juvenile Court, et al
Originating Case No. : l:I8-cv-00395
Dear Counsel and Mr. Bowie,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Ryan E. Orme
Case Manager
Direct Dial No. 513-564-7079
cc: Mr. Richard W. Nagel
Enclosure
Mandate to issue

NOT RECOMMENDED FOR PUBLICATION
No. 20-3743
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

BRANDON BOWIE,

)
)
)
)

Plaintiff-Appellant,
v.
HAMILTON COUNTY JUVENILE COURT, et
al„

)
)
)
)

Jan 20, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

)

Defendants-Appellees.
ORDER
Before: DAUGHTREY, McKEAGUE, and THAPAR, Circuit Judges.

Brandon Bowie, a pro se Ohio resident, appeals the district court’s judgment dismissing
his complaint brought pursuant to the Americans with Disabilities Act (ADA), 42 U.S.C. § 12132,
and the Rehabilitation Act (RA), 29 U.S.C. § 794. This case has been referred to a panel of the
court that, upon examination, unanimously agrees that oral argument is not needed. See Fed. R.
App. P. 34(a).
V/Bowie’s complaint originated in child-visitation proceedings before the Hamilton County
Juvenile Court in Cincinnati. Bowie claimed that he has a neurological condition that makes it
difficult for him to travel from his home in Columbus to Cincinnati and that the Juvenile Court
had allowed him to appear at various hearings via telephone. The Juvenile Court declined to grant
him permission to do so, however, for a hearing on June 20, 2017, which involved a contempt
motion filed by the mothers of Bowie’s children and various filings made by Bowie. After Bowie’s
counsel presented Bowie’s motion to appear telephonically on the morning of the hearing,
Magistrate Judge Catherine Kelley indicated that conducting the hearing via telephone would

No. 20-3743
-2“interfere with the ability of the court to properly observe and assess the credibility of Mr. Bowie.”
Bowie claimed that his inability to appear remotely led Magistrate Kelley to dismiss his motions
and prevented him from presenting evidence on his own behalf, although Magistrate Kelley did
grant his motion to waive appearance at the hearing and he was represented by counsel. Judge
Sylvia Hendon set a hearing to consider Bowie’s objections to Magistrate Kelley’s decision. After
Bowie was granted permission to appear via telephone, Judge Hendon ultimately found him guilty
of contempt for violating a visitation order.
Bowie then filed his original federal complaint claiming that the Juvenile Court violated
the ADA by failing to accommodate his request to appear telephonically at the June 20, 2017,
hearing. The Juvenile Court moved to dismiss, and Bowie moved to amend his complaint to add
as defendants Hamilton County, the Hamilton County Board of Commissioners, Judge Hendon,
and Magistrate Kelley. A magistrate judge initially recommended that the complaint be dismissed
in its entirety, but the district court dismissed only the Hamilton County Board of Commissioners
and Judge Hendon and Magistrate Kelley in their individual capacities and allowed Bowie to file
a second amended complaint. The second amended complaint asserted that the defendants had
violated the ADA and RA by failing to allow him to participate in judicial proceedings via
telephone in accommodation of his neurological condition. He therefore sought a declaration that
the defendants had violated the ADA and RA, an injunction ordering the defendants to comply
with the requirements of those laws and allow him to appear in that court via telephone, and
damages in the amount of $125,000.
•/ The defendants moved for judgment on the pleadings, and the magistrate judge
recommended the complaint’s dismissal because the pleadings did not establish that Bowie had
been discriminated against on the basis of his disability. Over Bowie’s objections, the district
court adopted the report and recommendation and granted the defendants’ motion for judgment on
the pleadings.
On appeal, Bowie argues that his ADA and RA claims should be allowed to proceed against
the Hamilton County Juvenile Court and Hamilton County because they are entities capable of

No. 20-3743
-3 being sued, relying on Judge Michael R. Barrett’s initial order allowing him to file his second
amended complaint.1 He argues that the defendants violated his rights under the ADA and RA by
not allowing him to appear telephonically at the June 20, 2017, hearing. He also asserts that the
defendants should have at least granted him a continuance so that he could appear personally or
provided him with a grievance procedure to pursue. Lastly, he argues that default judgment should
be granted against Judge Hendon and Magistrate Kelley for failing to answer the second amended
complaint. Bowie does not challenge Judge Barrett’s dismissal of Judge Hendon and Magistrate
Kelley in their individual capacities or the Hamilton County Board of Commissioners, and any
claims against those defendants are therefore abandoned on appeal. See Radvansky v. City of
Olmsted Falls, 395 F.3d 291, 310-11 (6th Cir. 2005).
\/SW e review de novo an order granting a motion for judgment on the pleadings under Federal
Rule of Civil Procedure 12(c), applying the same standard of review for the grant of a motion to
dismiss under Federal Rule of Civil Procedure 12(b)(6). Jackson v. City of Cleveland, 925 F.3d
793, 806 (6th Cir. 2019), cert, denied, 140 S. Ct. 855 (2020). In determining whether a complaint
states a claim, a court must construe the complaint in a light most favorable to the plaintiff, accept
all the factual allegations as true, and determine whether the complaint contains “enough facts to
state a claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007); see also Wesley v. Campbell, 779 F.3d 421, 428 (6th Cir. 2015).
The ADA and the RA prohibit public entities from excluding a disabled individual from or
denying him or her the benefits of services, programs, or activities on account of the individual’s
disability. 42 U.S.C. § j 2 i 32; 29 U.S.C. § 794. To establish a prima facie case of discrimination
under Title II, a plaintiff must show:
that he (1) is disabled under the statutes, (2) is “otherwise qualified” for
participation in [a state or local government] program, and (3) “is being excluded
from participation in, denied the benefits of, or subjected to discrimination” because
of his disability or handicap, and (4) (for the Rehabilitation Act) that the program
receives federal financial assistance.

This case was administratively reassigned to Judge Matthew W. McFarland on January 3,
2020.

No. 20-3743

-4Gohl v. Livonia Pub. Sch. Dist., 836 F.3d 672, 682 (6th Cir. 2016) (quoting G.C. v. Owensboro
Pub. Schs., 711 F.3d 623, 635 (6th Cir. 2013)). “Title II requires only ‘reasonable modifications
that would not fundamentally alter the nature of the service provided,’ not ‘to employ any and all
means to make judicial services accessible to persons with disabilities.’” Bedford v. Michigan,
722 F. App’x 515, 519 (6th Cir. 2018) (quoting Tennessee v. Lane, 541 U.S. 509, 531-32 (2004)).
/ The magistrate judge’s determination, as adopted by the district court, was that Bowie
failed to state a claim under the ADA or RA because he did not adequately plead that the Juvenile
Court had denied him access to the court because of his disability. According to the docket entry
for Magistrate Kelley’s decision,2 the motion to appear telephonically was denied because it
“would interfere with the ability of the court to properly observe and assess the credibility of Mr.
Bowie.” Although Bowie stated that he had been granted permission to appear telephonically
previously, he has not called into question Magistrate Kelley’s need for Bowie’s personal presence
in order to evaluate his credibility at the June 2017 hearing, particularly on an issue as serious and
fact-intensive as being in contempt of the Juvenile Court’s visitation order.

It was also not

reasonable for Bowie to assume that a motion Filed the morning of the hearing would be granted
simply because other similar motions had been granted in the past. Magistrate Kelley instead
granted Bowie’s motion to waive his appearance, and he was represented by counsel at the hearing.
Bowie was then able to file objections to Magistrate Kelley’s determination and was allowed to
appear telephonically before Judge Hendon. These facts do not show that Bowie was excluded
from participation in the court proceedings because of his disability. This conclusion is reinforced
by Bowie’s insistence on appeal that he should have been granted a continuance so that he could
make arrangements to attend personally, thus signaling that his claimed disability, though making
attendance difficult, did not make it impossible for him to attend the court proceedings in
Cincinnati when absolutely necessary. Because Bowie did not adequately plead a claim under the
ADA or RA, we need not consider the defendants’ various counterarguments. And Bowie cannot

2 The parties did not dispute the district court’s taking judicial notice of the attachments to
the parties’ pleadings.

No. 20-3743
-5 bring a claim under Title II of the ADA simply because the Juvenile Court lacked a designated
coordinator or a grievance procedure. See Tucker v. Tennessee, 539 F.3d 526, 532 (6th Cir. 2008);
Dillery v. City ofSandusky, 398 F.3d 562, 568 (6th Cir. 2005).
Bowie also argues that default judgment should have been granted against Magistrate
Kelley and Judge Hendon for failing to answer the complaint. They filed an answer on April 18,
2019, however, and this argument lacks merit.
Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

20-3743

Mr. Brandon Bowie
1608 Brentnell Avenue
Columbus, OH 43219

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 1 of 11 PAGEID #: 428

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Brandon Bowie
Plaintiff,
Case No.: 1:18-cv-395
v.
Judge Michael R. Barrett
Hamilton County
Juvenile Court,
Defendant.
OPINION & ORDER
This matter is before the Court on the Magistrate Judge’s January 9, 2019 Report
and Recommendation (“R&R”).

(Doc. 25).

The parties were given proper notice

pursuant to; Federal Rule of Civil Procedure 72(b), including notice that the parties
would waive further appeal if they failed to file objections to the R&R in a timely manner.
See United States v. Walters, 638 F.2d 947, 949-950 (6th Cir. 1981). Plaintiff filed
Objections (Doc. 26) and Supplemental Information (Doc. 27). Defendant responded to
Plaintiff’s Objections (Doc. 28) and Plaintiff filed a Reply (Doc. 29).
This Court shall consider objections to a magistrate judge's order on a.
nondispositive matter and “shall modify or set aside any portion of the magistrate
judge’s order found to be clearly erroneous or contrary to law.” Fed. R. Civ. P. 72(a).
When objections to a magistrate judge’s report and recommendation are received on a
dispositive matter, the assigned district judge “must determine de novo any part of the
magistrate judge’s disposition that has been properly objected to.”
72(b)(3).

Fed. R. Civ. P.

After review, the district judge “may accept, reject, or modify the

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 2 of 11 PAGEID #: 429

recommended decision; receive further evidence; or return the matter to the magistrate
judge with instructions.” !d. \ see also 28 U.S.C. § 636(b)(1).
In her January 9, 2019 R&R, the Magistrate Judge recommends that Defendant’s
Motion to Dismiss (Doc. 13) be granted, Plaintiffs Motion to Amend (Doc. 16) be
denied; all remaining pending motions (Docs. 2, 9,18) be denied as moot; and this case
be closed.

i.

BACKGROUND
Plaintiffs claims arise out of his child support case pending in Hamilton County

Juvenile Court.

Plaintiff lives in Columbus, Ohio.

(Doc. 16-1).

According to his

proposed Second Amended Complaint, Plaintiff has a neurological condition which
makes it difficult for him to travel from Columbus to Cincinnati. (Doc. 16-1, 1f 14).
hearing was scheduled in his child support case for June 20, 2017. (Doc. 16-1,

A
18-

19). Plaintiff requested to participate in the hearing by telephone or video conference.
(Doc. 16-1, If 18).

Plaintiffs request was supported by letters from his doctor. (See

Doc. 27). Plaintiff had previously been permitted to appear at a hearing by telephone.
(Doc. 16-1, H 18).

However, on the day of the hearing, Magistrate Catherine Kelly

denied Plaintiffs request to participate in the hearing by telephone with no prior notice.
(Doc. 16-1, If 19).

Plaintiffs counsel, who was present at the hearing, requested a

continuance, but Magistrate Kelly denied that request. (Doc. 16-1, If 19). Magistrate
Kelly's decision was later upheld by Judge Sylvia Hendon.

(Doc. 16-1,20-21).

Plaintiff claims that allowing him to participate by phone was a reasonable
accommodation of his disability.

(Doc. 16-1, fl 25).

2

Plaintiff further claims that the

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 3 of 11 PAGEID #: 430

failure to provide him with this accommodation resulted in him being denied access to
the court. (Doc. 16-1,

25).

In his proposed Second Amended Complaint, Plaintiff seeks injunctive relief and
compensatory damages under Title II of the Americans with Disabilities Act of 1990
(“ADA"), which provides: “[N]o qualified individual with a disability shall, by reason of
such disability, be excluded from participation or denied the benefits of the services,
programs or activities of a public entity.” 42 U.S.C. § 12132.

Plaintiff also brings a

claim under Section 504 of the Rehabilitation Act of 1973, 29 U.S.C. § 794, which
prohibits entities receiving federal funds from discriminating against individuals with
disabilities.

Initially, Plaintiff named the Hamilton County Juvenile Court as the sole

defendant.

In his proposed Second Amended Complaint, Plaintiff seeks to add the

following

parties:

Commissioners,

Hamilton

County,

Ohio,

Hamilton

Hamilton County Judge Sylvia

County

Hendon and

Ohio

Board

of

Hamilton County

Magistrate Catherine Kelly.
II.

ANALYSIS
A. Motion to Dismiss
Dismissal pursuant to Federal Rule of Civil Procedure 12(b)(6) is “appropriate

when a plaintiff fails to state a claim upon which relief can be granted.”

When

evaluating a motion to dismiss under the rule, a district court assumes the factual
allegations in the complaint are true and “‘draw[s] all reasonable inferences in favor of
the plaintiff.’”

Bassett v. Natl Collegiate Athletic Ass'n, 528 F.3d 426, 430 (6th Cir.

2008) (quoting Directv, Inc. v. Treesh, 487 F.3d 471,476 (6th Cir. 2007)).

3

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 4 of 11 PAGEID #: 431

Pleadings and documents filed by pro se litigants are to be “liberally construed,”
and a “pro se complaint, however inartfully pleaded, must be held to a less stringent
standard than formal pleadings drafted by lawyers.” Erickson v. Pardus, 551 U.S. 89,
94 (2007) (quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976)). However, “the lenient
treatment generally accorded to pro se litigants has limits.” Pilgrim v. Littlefield, 92 F.3d
413, 416 (6th Cir. 1996) (citing Jourdan v. Jabe, 951 F.2d 108, 110 (6th Cir. 1991)).
The basic pleading essentials are not abrogated in pro se cases. Wells v. Brown, 891
F.2d 591, 594 (6th Cir. 1989). A pro se complaint must still “contain sufficient factual
matter, accepted as true, to state a claim to relief that is plausible on its face.” Barnett
v. Luttrell, 484 Fed. Appx. 784, 786 (6th Cir. 2011) (quoting Ashcroft v. Iqbal, 556 U.S.
662, 677, 129 S. Ct. 1937, 1949, 173 L. Ed. 2d 868 (2009)) (internal quotations and
emphasis omitted).
Plaintiff has clarified that he is not seeking relief in a pending child support case
but is instead seeking assistance in receiving ADA accommodations. The Court notes
that the Supreme Court has explained that Title II of the ADA creates an “affirmative
obligation to accommodate persons with disabilities in the administration of justice.”
Tennessee v. Lane, 541 U.S. 509, 533, 124 S. Ct. 1978, 1994, 158 L. Ed. 2d 820
(2004).
The Magistrate Judge explained that the Hamilton County Juvenile Court is not a
legal entity capable of being sued.

“Absent express statutory authority, a court can

neither sue nor be sued in its own right.” Burton v. Hamilton Cty. Juvenile Court, No.
1:04-CV-00368, 2006 WL 91600, at *5 (S.D. Ohio Jan. 11, 2006) (quoting Malone v.
Court of Common Pleas of Cuyahoga County, 45 Ohio St.2d 245, 248, 344 N.E.2d 126

4

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 5 of 11 PAGEID #: 432

1976)); see also Stewart v. Lucas Cty. Juvenile Court, Case No. 3:08cv1603, 2009 WL
3242053, at *6 (N.D. Ohio Oct. 2, 2009) (holding that the Lucas County Juvenile Court
cannot be sued in its own right).

v/

However, one federal district court has recently concluded that Title II of the
Americans with Disabilities Act and Section 504 of the Rehabilitation Act provide the
“express statutory authority” necessary to sue the domestic relations division of an Ohio
court of common pleas. Jaegly v. Lucas Cty. Bd. of Commissioners, No. 16-CV-1982,
2017 WL 6042237, at *4 (N.D. Ohio Dec. 6, 2017). In addition, the Sixth Circuit has.\-y^fT ~
held that Title II of the ADA validly abrogated Eleventh Amendment sovereign immunity
in cases where it is used to enforce Due Process rather than Equal Protection
guarantees.

Popovich v. Cuyahoga County Court of Common Pleas, Domestic

Relations Division, 276 F.3d 808, 813-16, 817 (6th Cir.) (en banc), cert, denied, 537
U.S. 812 (2002) (remanding case against state court for retrial because “refusal of the
state court to provide plaintiff with closed captioned translation of the proceeding, or
other forms of hearing assistance, may constitute an unreasonable exclusion of plaintiff
from participation in the proceeding under principles of due process of law.”); see also
Mingus v. Butler, 591 F.3d 474, 483 (6th Cir. 2010) (Eleventh Amendment immunity
abrogated as long as ADA claim seeks only the level of review to which the plaintiff
would otherwise be entitled (i.e., “rational basis” review in a disability case) because
doing so would not “creat[e] a higher standard of liability” for the defendant). In addition
the Sixth Circuit has held that Ohio has waived Eleventh Amendment immunity against
Rehabilitation Act claims. Robinson v. Univ. of Akron Sch. of Law, 307 F.3d 409, 411
(6th Cir. 2002) (citing Nihiser v. Ohio Environmental Protection Agency, 269 F.3d 626,

5

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 6 of 11 PAGEID #: 433

628-29 (6th Cir. 2001)).

Therefore, to the extent that Defendant Hamilton County

Juvenile Court seeks to dismiss the claims against it, Defendant Hamilton County
Juvenile Court’s Motion to Dismiss is DENIED.
B. Motion to Amend
Federal Rule of Civil Procedure 15(a) provides that a “party may amend its
pleading once as a matter of course within: (A) 21 days after serving it, or (B) if the
pleading is one to which a responsive pleading is required, 21 days after service of a
responsive pleading or 21 days after service of a motion under Rule 12(b), (e), or (f),
whichever is earlier.” Fed. R. Civ. P. 15(a)(1)(A)-(B). In all other cases, “a party may
amend its pleading only with the opposing party's written consent or the court's leave.”
Fed. R. Civ. P. 15(a)(2). However, “[t]he court should freely give leave when justice so
requires.” Fed. R. Civ. P. 15(a)(2). Leave should be granted unless there is “undue
delay, bad faith or dilatory motive on the part of the movant, repeated failure to cure
deficiencies by amendments previously allowed, undue prejudice to the opposing party
by virtue of allowance of the amendment, [or] futility of amendment.” Foman v. Davis,
371 U.S. 178, 182, 83 S.Ct. 227, 9 L.Ed.2d 222 (1962). “A proposed amendment is
futile if the amendment could not withstand a Rule 12(b)(6) motion to dismiss.” Rose v.
Hartford Underwriters Ins. Co., 203 F.3d 417, 420 (6th Cir. 2000) (citing Thiokol Corp. v.
Dep't of Treasury, Revenue Div., 987 F.2d 376, 382-83 (6th Cir. 1993)).
The Magistrate Judge explained that Plaintiff could not amend his complaint to
add Hamilton County, Ohio as a party because Hamilton County is a geographic
location and as such is not suijuris.

6

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 7 of 11 PAGEID #: 434

Capacity to be sued in the federal district courts is governed by Federal Rule of
Civil Procedure 17(b), which provides that the capacity of an entity such as a county or
county agency to be sued is determined “by the law of the state where the court is
located.” However, as this Court has explained: “It is Eleventh Amendment immunity
that determines whether Hamilton County can be sued under the federal laws.” Smith
v. Grady, 960 F. Supp. 2d 735, 743-44 (S.D. Ohio 2013). This Court has concluded that
Hamilton County is not entitled to sovereign immunity under the Eleventh Amendment,
\

and therefore it may be sued in this Court under the ADA regardless of its ability to sue
or be sued under state law.

Id. at 744; see also Jaegly v. Lucas Cnty. Bd. of

Commissioners, No. 16-CV-1982, 2017 WL 4310634, at *3 (N.D. Ohio Sept. 28, 2017);
adhered to on reconsideration, No. 16-CV-1982, 2017 WL 6042237 (N.D. Ohio Dec. 6
2017) (finding Rule (17)(b)(3) does not bar suit against Lucas County in federal court
under Title II of the ADA and the Rehabilitation Act); Horen v. Lucas Cnty., Ohio, No.
3:11CV1110, 2011 WL 4842391, at *2 (N.D. Ohio Oct. 12, 2011) (allowing suit against
the county under the ADA and Rehabilitation Act). Therefore, Plaintiffs amendment to
the Complaint adding Hamilton County as a party is not futile.

Plaintiffs Motion to

Amend is GRANTED to the extent it seeks to bring claims under the ADA and the
Rehabilitation Act against Hamilton County.
The

Magistrate Judge also found

that the

Hamilton County Board of

Commissioners is not a proper defendant in this matter. Ohio Revised Code § 305.12
states, in part: “The board of county commissioners may sue and be sued, and plead
and be impleaded, in any court.”

However, as the Magistrate Judge explained, the

county commissioners’ authority over a county juvenile court is limited to supplying a

7

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 8 of 11 PAGEID #: 435

facility and setting the budget of a juvenile court pursuant to Ohio Revised Code §§
2151.09 and 2151.10. Plaintiff does not allege that the Commissioners have authority
to set policy regarding the manner in which hearings were held, including whether
parties are permitted to appear by telephone or video conference.

Instead, Plaintiff

argues that the Commissioners should have an ADA and Rehabilitation Act compliance
system in place, which would include training, a designated coordinator and a grievance
procedure. However, to bring a claim under Title II of the ADA, “the plaintiff must show
that the discrimination was intentionally directed toward him or her in particular.” Tucker
v. Tennessee, 539 F.3d 526, 532 (6th Cir. 2008) (emphasis in original).

“Acts and

omissions which have a disparate impact on disabled persons in general are not
specific acts of intentional discrimination against the plaintiff in particular.” Dillery v. City
of Sandusky, 398 F.3d 562, 568 (6th Cir. 2005). Therefore, claims under Title II of the
ADA cannot be based on theories of recovery such as failure to train or failure to
supervise, since these failures are necessarily not directed at a particular disabled
individual.
Finally, the Magistrate Judge found that Judge Hendon and Magistrate Kelly are
entitled to absolute immunity from lawsuits involving money damages. The Magistrate
Judge also found that to the extent Plaintiff is seeking declaratory and injunctive relief,
those claims are barred by the doctrine outlined in Younger v. Harris, 401 U.S. 37
(1971).

Plaintiff argues that Judge Hendon and Magistrate Kelly are not immune

because they acted with “deliberate indifference” and Plaintiff seeks injunctive relief
against Judge Hendon and Magistrate Kelly in their official capacity.

8

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 9 of 11 PAGEID #: 436

Judicial officers are entitled to absolute immunity from damage claims arising out
of acts performed in the exercise of their official functions. Neitzke v. Williams, 490 U.S.
319, 325, 109 S.Ct. 1827, 104 L.Ed.2d 338 (1989).

Plaintiff has alleged that Judge

Hendon and Magistrate Kelly failed to provide him a reasonable accommodation by
permitting him to testify by telephone of video conference. The Court notes that these
acts on the part of Judge Hendon or Magistrate Kelly were performed in the exercise of
their official functions, and therefore Judge Hendon and Magistrate Kelly are immune
from Plaintiffs claim for damages.
In addition, “Title II of the ADA does not... provide for suit against a public official
acting in his individual capacity.”

Everson v. Leis, 556 F.3d 484, 501 n. 7 (6th Cir.

2009). However, the Sixth Circuit has held that the Eleventh Amendment does not bar
an ADA Title II claim for prospective relief against state officials in their official
capacities.

Carten v. Kent State Univ., 282 F.3d 391, 396-97 (6th Cir. 2002).

Therefore, to the extent that Plaintiff seeks to add a claim for prospective injunctive
relief under Title II of the ADA against Judge Hendon and Magistrate Kelly in their
official capacity, those claims are not futile. Plaintiffs Motion to Amend is GRANTED to
the extent it seeks to bring these claims.
C. Remaining Motions
Plaintiff filed a Motion for Temporary Restraining Order (Doc. 2), which was later
amended (Doc. 9). Plaintiff seeks the following injunctive relief:
a temporary restraining order or a preliminary injunction or a permanent
injunction (whichever the court deems) enjoining defendant, Hamilton
County Juvenile Court, (Judge Sylvia Hendon, Magistrate Catherine Kelly
and Attorney James Hartke) from engaging in or performing any of the
following acts: such as threats of incarceration, forcing Mr. Bowie to sign
US passport for his minor children for them to take a trip out of the country

9

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 10 of 11 PAGEID #: 437

against his will, discontinue forcing Mr. Bowie to appear in person at
hearings instead of reasonably accommodating him which is noncompliant with the American Disability Act. There needs to be ADA
training, an ADA Coordinator (an appointed employee) and grievance
policy in place on the court’s website.
(Doc. 9, PAGEID# 296).
In deciding whether to issue injunctive relief, one of the factors this Court must
consider whether there is the threat of irreparable harm to Plaintiff.

Cooper v.

Honeywell, Int’l, Inc. 884 F. 3d 612, 615 (6th Cir. 2018). The harm alleged must be
“actual and imminent,” not “speculative or unsubstantiated.” Abney v. Amgen, Inc., 443
F. 3d 540, 552 (6th Cir. 2006). Plaintiff has not alleged harm that is actual or imminent,
such as harm which would result from a hearing scheduled in the immediate future.
Therefore, the Court concludes that Plaintiff has not established that he would suffer
irreparable harm- absent._an~injunction.

Accordingly, Plaintiffs Amended Motion for

Temporary Restraining Order (Doc. 9) is DENIED.
Plaintiff also requests that this Court to appoint an attorney. (Doc. 18). Counsel
may be appointed for indigent parties in civil cases, but such an appointment is at the
discretion of the Court. Lavado v. Keohane, 992 F.2d 601, 604 (6th Cir. 1993). An
attorney will be appointed for indigent parties in a civil suit only when justified by
exceptional circumstances. Id. In evaluating a matter for “exceptional circumstances,” a
court should consider: (1) the probable merit of the claims, (2) the nature of the case,
(3) the complexity of the legal and factual issues raised, and (4) the ability of the litigant
to represent him or herself. Lince v. Youngert, 136 Fed.Appx. 779, 782 (6th Cir. 2005).
The Court finds that such circumstances do not exist here. Plaintiff has brought two
similar statutory claims based on a single incident. Plaintiff appears to have the ability

10

.>

Case: l:18-cv-00395-MRB-SKB Doc #: 30 Filed: 03/22/19 Page: 11 of 11 PAGEID #: 438

to represent himself. The Court notes that Plaintiff has filed timely pleadings which cite
appropriate caselaw and make cogent legal arguments. Therefore, Plaintiff’s Motion for
Appointment of Counsel (Doc. 18) is DENIED.
III.

CONCLUSION
Based on the foregoing, the Magistrate Judge’s January 9, 2019 R&R (Doc. 25)

is ADOPTED In PART. Accordingly, it is hereby ORDERED that:
1. Defendant’s Motion to Dismiss (Doc. 13) is DENIED,.,
2. Plaintiff's Motion to Amend (Doc. 16) is DENIED in PART and GRANTED in
PART;
3. Motion forTemporary Restraining Order (Doc. 2) is DENIED as MOOT;
4. Plaintiff’s Amended Motion for Temporary Restraining Order (Doc. 9) is DENIED;
and
5. Plaintiff’s Motion for Appointment of Counsel (Doc. 18) is DENIED.
6. Plaintiff shall file his SeconcLAmended~6omplaint in conformity with this Order
within fourteen (14) days of entry of this Order.
IT IS SO ORDERED.
/s/ Michael R. Barrett
JUDGE MICHAEL R. BARRETT

11

/

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 1 of 7 PAGEID

•' '/

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
BRANDON BOWIE,

Case No. 1:18-cv-395

Plaintiff,
Barrett, J.
Bowman, M.J.

vs.
HAMILTON COUNTY JUVENILE COURT
Defendants.

REPORT AND RECOMMENDATION
Plaintiff Bowie initially originated this action in the Columbus Division

of the

Southern District of Ohio, and this matter was subsequently transferred to the proper
division in Cincinnati. (Doc. 3).

Thereafter, the undersigned issued a Report and

Recommendation that the complaint be dismissed with prejudice for failure to state a
claim. (Doc. 6). Plaintiff then objected to the Report and Recommendation
allowed to proceed with an Amended Complaint.

(See Doc.

and was

10, Order Withdrawing

Report and Recommendations). This civil action is before the Court on Defendant’s
motion to dismiss (Doc. 13) and the parties’responsive memoranda. (Docs. 17,21). Also
before the Court is Plaintiffs motion to amend. (Doc. 16). The motions will be addressed
in turn.
I.

Background and Facts

Plaintiffs complaint purports to bring claims under the American with Disabilities
Act of 1964 ("ADA"). However, the allegations contained in the complaint complain about
the results of his pending child support case and the actions of the judge and counsel.
Plaintiff alleges that due to his disability it is very difficult for him to travel from Columbus

1

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 2 of 7 PAGEID #: 375

to Cincinnati to appear in person for hearings in Juvenile Court. (Doc.1-3). Plaintiffs
complaint asks this court to rule in his favor in the child support case, declare that
Defendant’s actions violation the ADA and enjoin Defendant from further discriminatory
contuct. Plaintiff also seeks $125,000.00 in compensatory damages.
II.

Analysis
1. Motion to Dismiss

Plaintiff Bowie sued the Hamilton County Juvenile Court as the single named party
in his complaint. Federal Rule of Civil Procedure 17(b)(3) provides that the “law of the
state where the court is located” governs whether a court or other governmental entity
can sue or be sued. Thus, this Court must look to the law of the state of Ohio to determine
whether the Hamilton County Juvenile Court is an entity capable of being sued. The Ohio
Supreme Court has concluded that Ohio courts are not sui juris. In other words, “(ajbsent
^express statutory authority, a court can neither sue nor be sued in its own right.” Malone
v. Court of Common Pleas of Cuyahoga County, 45 Ohio St.2d 245,248, 344 N.E.2d 126
(1976)(quoting State ex rel. Cleveland Municipal Court v. Cleveland City Council, 34 Ohio
St.2d 120, 121,296 N.E.2d 544 (1973)). Here, Plaintiff has not cited any authority, nor is
this Court aware of any, contrary to the Ohio Supreme Court's conclusion in Malone.
Therefore, the Hamilton County Juvenile Court is not a legal entity capable of being sued.
Accordingly, Defendant’s motion to dismiss (Doc. 13) is well-taken and should be granted.
2. Motion to Amend
Plaintiff seeks to amend his complaint to add additional defendants: Hamilton
County, Ohio, Hamilton County Ohio Board of Commissioners, Hamilton County Judge
Sylvia Hendon and Hamilton County Magistrate Catherine Kelly.

2

Plaintiffs proposed

r

’

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 3 of 7 PAGEID #: 376

amendments are not well taken.
“Under Rule 15(a)(1), a party may amend the complaint once as a matter of course
before being served with a responsive pleading.” Broyles v. Correctional Medical Serv.,
Inc., 2009 WL 3154241 (6th Cir.2009); see Pertuso v. Ford Motor Credit Co., 233 F.3d
417, 421 (6th Cir.2000). The Sixth Circuit has described this Rule as giving plaintiffs an
“absolute right to amend.” Pertuso, 233 F.3d at 421.
However, where a responsive pleading has been filed, “a party may.amend its
pleading only with the opposing party's written consent or the court's leave." Fed.R.Civ.P.
15(a)(2). Although the “court should freely give leave when justice so requires,”
Fed.R.Civ.P. 15(a)(2), provides that leave to amend may be denied for: (1) undue delay,
(2) lack of notice to the opposing party, (3) bad faith, (4) repeated failure to cure in prior
amendments, (5) prejudice to the opposing party, or (6) futility of the amendments. Foman
v. Davis, 371 U.S. 178, 182 (1962J; Perkins v. American Elec. Power Fuel Supply, Inc.,
246 F.3d 593, 605 (6th Cir.2001). “Amendment of a complaint is futile when the proposed
amendment would not permit the complaint to survive a motion to dismiss.” Miller v.
Calhoun Cnty., 408 F.3d 803, 817 (6th Cir.2005). To survive a motion to dismiss, a
Complaint must contain sufficient factual allegations to state a claim that is plausible.
Ashcroft v. Iqbal, 556 U.S. 662 (2009); Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570,
127 S.Ct. 1955,167 L.Ed.2d 929 (2007). Here, Plaintiffs proposed amendments are futile
because they fail to state a claim upon which relief may be granted by this Court
Notably, Hamilton County, Ohio is a geographic location and as such is not sui
juris. See McGuire v. Ameritech Services, Inc., 253 F. Supp. 988,1015 (S.D. Ohio 2003).
Similarly, the Hamilton County Board of Commissioners is not a proper defendant in this

3

'

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 4 of 7 PAGEID #: 377

matter. It is well-settled that county officials and entities do not have any authority unless
the Ohio General Assembly affirmatively grants it. Geauga Cty. Bd. ofCommrs. v. Munn
Rd. Sand & Gravel( 1993), 67 Ohio St.3d 579, 583, 621 N.E.2d 696.
Thus, any grant of authority “must be in clear and certain terms,” and the
presumption against authority requires the grant to be strictly construed. Geauga Cty. Bd.
of Commrs., 67 Ohio St.3d at 583, 621 N.E.2d 696. Thus, in the absence of a specific
statutory grant of authority, a board of county commissioners is powerless to take any
action. O.R.C. Chapter 2151 makes it very clear that the county commissioners have no
operational control of a county juvenile court other than the supply of a facility and setting
of a budget pursuant to O.R.C. 2151.09 and R.C. 2151.10. Absent any statutory authority,
the Hamilton County Board of Commissioners has no role or authority to determine
policies and procedures of the Juvenile Court or the Judges and Magistrates presiding
over said Court. Accordingly, any such claims asserted by Plaintiff would be futile.
Last, Judge Hendon and Magistrate Kelly are absolutely immune from lawsuits
involving money damages. See Mireles v. Waco, 502 U.S. 9, 9-10 (1991)(per curiam);
Mann v. Conlin, 22 F.3d 100,103 (6th Cir.1994) (“A judge performing his judicial functions
is absolutely immune from suit seeking money damages.”). Additionally, to the extent
Plaintiff is seeking declaratory and/or injunctive relief, such claims are also barred by the
doctrine outlined in Younger v. Harris, 401 U.S. 37 (1971).

Absent extraordinary

circumstances not present here, federal courts should not interfere with pending state
proceedings in order to entertain constitutional challenges to the state proceedings.
Younger v. Harris, 401 U.S. 37 (1971). Under the Younger doctrine, the federal court must
abstain where “(1) state proceedings are pending; (2) the state proceedings involve an

4

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 5 of 7 PAGEID #: 378

important state interest; and (3) the state proceeding will afford the plaintiff an adequate
opportunity to raise his constitutional claims.” Kelm v. Hyatt, 44 F.3d 415, 419 (6th Cir.
1995) (citing Nilsson v. Ruppert, Bronson & Chicarelli Co., 888 F.2d 452, 454 (6th Cir.
1989)); see also Ohio Civil Rights Commission v. Dayton Christian Schools, Inc., 477
U.S. 619, 106 S.Ct. 2718 (1986) (applying the abstention defined in Younger, a criminal
case, to civil proceedings and cases); Middlesex County Ethics Comm. v. Garden State
Bar Ass'n, 457 U.S. 423, 102 S.Ct. 2515 (1982) (same).
Here, as noted by Defendant, the state domestic relations proceedings were
pending at the time this case was filed (and are currently pending), which satisfies the
first criteria for Younger abstention. Kelm v. Hyatt, 44 F.3d 415, 419 (6th Cir. 1995).
Further, the 6th circuit has held that such proceedings do involve paramount state
interests and therefore qualify under the second Younger test. Id. at 420 (citing
Ankenbrandt v. Richards, 504 U.S. 712 (1992)). Finally, in Kelm, the Sixth Circuit
concluded that the Ohio courts do provide an adequate forum for such plaintiffs
constitutional claims and that the third criterion for Younger abstention was also satisfied.
It is well-established that lower federal courts lack the subject matter jurisdiction to
conduct appellate review of state court decisions. Berry v. Schmitt, 688 F.3d 290, 289
(6th Cir.2012) (citing Exxon Mobil Corp., 544 U.S. at 291). As such, Plaintiffs request to
add such defendants is futile and therefore his motion to amend (Doc. 16) should be
denied.

5

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 6 of 7 PAGEID #: 379

III.

Conclusion

For these reasons, is therefore RECOMMENDED that Defendant’s motion to
dismiss (Doc. 13) be GRANTED, Plaintiffs motion to amend (Doc. 16) be DENIED; all
remaining pending motions (Docs. 2, 9, 18) be DENIED as MOOT; and this case be
CLOSED.
$/ Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

6

Case: l:18-cv-00395-MRB-SKB Doc #: 25 Filed: 01/09/19 Page: 7 of 7 PAGEID #: 380

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
BRANDON BOWIE,

Case No. 1:18-cv-395

Plaintiff,
Barrett, J.
Bowman, M.J.

vs.
HAMILTON COUNTY JUVENILE COURT
Defendants.
NOTICE

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written
objections to this Report and Recommendation (“R&R”) within FOURTEEN (14) DAYS of
the filing date of this R&R. That period may be extended further by the Court on timely
motion by either side for an extension of time. All objections shall specify the portion(s)
of the R&R objected to, and shall be accompanied by a memorandum of law in support
of the objections. A party shall respond to an opponent’s objections within FOURTEEN
(14) DAYS after being served with a copy of those objections. Failure to make objections
in accordance with this procedure may forfeit rights on appeal. See Thomas v. Am, 474
U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

7

1
CM/ECF LIVE - U.S. District Court:OHSD

Page I of 1

Other Orders/Judgments
1:18-cv-00395-MRB-SKB Bowie v. Hamilton County Juvenile Court
CASREF.LC1 ,PRO SE
U.S. District Court
Southern District of Ohio
Notice of Electronic Filing
The following transaction was entered on 1/9/2019 at 8:29 AM EST and filed on 1/9/2019
Case Name:
Bowie v. Hamilton County Juvenile Court
Case Number:
l:18-cv-00395-MRB-SKB
Filer:
Document Number: 25
Docket Text:
REPORT AND RECOMMENDATIONS - IT IS RECOMMENDED that Defendant's motion
todismiss [13] be GRANTED, Plaintiffs motion to amend [16] be DENIED; allremaining
pending motions [2] [9] [18] be DENIED as MOOT; and this case be CLOSED. Objections
to R&R due by 1/23/2019. Signed by Magistrate Judge Stephanie K. Bowman on
1/9/2019. (km) (This document has been sent by regular mail to the party(ies) listed in
the NEF that did not receive electronic notification.)
l:18-cv-00395-MRB-SKB Notice has been electronically mailed to:
Pamela J Sears

pam.sears@hcpros.org

Eric Adam Munas

eric.munas@hcpros.org

Cooper D Bowen

cooper.bowen@hcpros.org

l:18-cv-00395-MRB-SKB Notice has been delivered by other means to:
Brandon Bowie
1608 Brentnell Avenue
Columbus, OH 43219
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1040326259 [Date=l/9/2019] [FileNumber=6455017-0]
[561167aac287e263el8a0220c30f633643e7e86b67bld23193fcad4986138d0al2b6
63124a3374bf4f56609b647ae9cced2al4aa7d70bl 18b0ab3a0e636faba7]]

httns'Z/er-.f nhsrl r.irr.6 drn/roi-hin/nicnatrh n19£59££zlOOQzH

i /onmo

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 1 of 11 PAGEID #: 832

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
BRANDON BOWIE
Case No. 1:18-cv-395
Plaintiff,
McFarland, J.
Bowman, M.J.

v.
HAMILTON COUNTY
JUVENILE COURT, etal.
Defendants.

REPORT AND RECOMMENDATION
This civil action is before the Court on Defendants’ Motion for Judgment on the
Pleadings (Doc. 40) and the parties’ responsive memoranda.
I.

Background and facts

This action arises from underlying child visitation cases within the Hamilton County
Juvenile Court. Plaintiff Brandon Bowie has brought claims against Defendants Judge
Sylvia Hendon and Magistrate Catherine Kelley, in their official capacities, as well as
“Hamilton County Juvenile Court” and “Hamilton County, Ohio” for violation of Title II of
the American Disabilities Act and Title 504 of the Rehabilitation Act. (Doc. 31 at

).

Plaintiff lives in Columbus, Ohio and claims a neurological condition makes it
difficult for him to travel from Columbus to Cincinnati. (Doc 31, Page ID #447-448).
Magistrate Kelley had previously allowed Mr. Bowie to appear via telephone at certain
hearings. A hearing was scheduled for June 20, 2017 to hear several pending motions
including a motion for contempt filed by the mothers of Mr. Bowie’s children as well as
Mr. Bowie’s own motions. The day of the hearing, counsel for Mr. Bowie filed a motion
for him to appear via telephone or video. Magistrate Kelley denied Plaintiffs motion to

1

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 2 of 11 PAGEID #: 833

appear via telephone or video that was filed that morning as it would “interfere with the
ability of the court to properly observe and assess the credibility of Mr. Bowie.” (See Doc.
37-1, PAGEID# 510, June 20, 2017 Journal Entry). However, Plaintiff’s motion to waive
appearance was granted and he was represented by counsel at the hearing. (Id.) Plaintiff
alleges that his pending motions were dismissed due to his inability to offer evidence
since he was not participating in the hearing.1 Judge Sylvia Hendon held a hearing on
the objections on March 23, 2018. She then set the matter for sentencing on May 24,
2018 and ordered Plaintiff to appear. (Id. at PAGEID# 511, April 12, 2018 Journal Entry).
After a continuance was granted on May 24, 2018, the hearing was re-set for June 20
2018. (Id., May 24, 2018 Journal Entry).
On June 20, 2018 Plaintiff failed to appear at the hearing before Judge Hendon.
He told the court that he had to go to the emergency room for a tooth ache. (Id., June 20,
2018 Journal Entry). The Judge then re-set the hearing for July 20, 2018 and allowed the
Plaintiff to appear via telephone. (Id., July 20, 2018 Journal Entry). Plaintiff was found in
contempt for violation of the visitation order. (Id.) The Judge allowed subsequent
continuances of the trial on support issues for Plaintiffs medical reasons and also allowed
him to waive appearance at a pre-trial if he satisfied payment of the contempt penalty.
(Id., October 10, 2018 Journal Entry and December 17, 2018 Journal Entry). Plaintiff
subsequently filed an appeal of the Judge’s Decision. (Id. at PAGEID# 512, April 8, 2019
Entry).

1 Although the Journal Entry does not support this allegation, it is evident from the transcript of the hearing
before Judge Hendon on March 23, 2018 that Magistrate Kelley did not address the contempt motions
and motion to modify parenting time that Plaintiff had pending. See Doc. 8-1, PAGEID#257-259.
2

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 3 of 11 PAGEID #: 834

Plaintiff brought this action against Judge Hendon, Magistrate Kelley, the Hamilton
County Juvenile Court and Hamilton County, Ohio for violations of Title II of the Americans
with Disabilities Act (“ADA”). Plaintiff had originally filed his complaint solely against the
Hamilton County Juvenile Court. (Doc. 8). A motion to dismiss was filed as the Hamilton
County Juvenile Court is not sui juris and thus not capable of being sued. (Doc. 13). The
undersigned recommended that the motion be granted (Doc. 25); however, the district
judge declined to adopt the Report and Recommendation relying on the Northern District
of Ohio opinion in Jaegfy v. Lucas Cty. Bd. Of Commissioners, No. 16-cv-1982, 2017 WL
6042237, at *4 (N.D. Ohio Dec. 6, 2017) and permitted Plaintiff to file a second amended
complaint. The reasoning in Jaegiy, adopted by this court, was that Title II of the ADA
provides express statutory authority to sue the domestic relations division of an Ohio court
of common pleas. (Doc. 30, PagelD 432). Further, the Court held that Ohio has waived
Eleventh Amendment immunity against Rehabilitation Claims. (Id.). The Court further held
both Judge Hendon and Magistrate Kelley are immune from Plaintiffs claim for damages.
In his Second Amended Complaint, Plaintiff seeks a declaration that Defendants
alleged actions violated Title II of the ADA and Section 504 of the Rehabilitation Act, as
well as injunctive relief (1) enjoining Defendants “from engaging in discriminatory
practices against Bowie a qualified individual with a disability,” and (2) ordering
Defendants to comply with Title II of the ADA and Section 504 of the RA. In addition,
Plaintiff also maintained his request for compensatory damages against Defendants in
the amount of $125,000.00.
Defendants now move for dismissal of Plaintiffs Second Amended Complaint, with
prejudice, for failure to state a claim. (Doc. 40 at 1). Defendants assert: (1) Plaintiff is not

3

\*« ^

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 4 of 11 PAGEID #: 835

entitled to declaratory relief or compensatory relief against Judge Hendon or Magistrate
Kelley as a matter of law; (2) Plaintiff is not entitled to injunctive relief because Plaintiffs
requested accommodation was unreasonable and Plaintiff did not state a claim for relief
under Title II of the American Disabilities Act or Section 504 of the Rehabilitation Act; and
(3) “Plaintiffs claims against punitive Defendants Hamilton County Juvenile Court and
Hamilton County, Ohio fail for the additional reasons that they are not suijuris ” (Id. at 4).
Plaintiff rejects Defendants’ assertions and argues that judgment on the pleadings
against Plaintiffs second amended complaint would be improper. Plaintiff asserts that his
second amended complaint (Doc. 31) provides detailed allegations of Defendants’
violation of Plaintiffs rights under the ADA and RA. (Doc. 44 at 2).
II.

Analysis
A. Standard of Review

The Federal Rules of Civil Procedure permit parties to move for judgment on the
pleadings. Fed. R. Civ. Proc. R. 12(c). The standard of review for a 12(c) motion is the
same de novo standard of review that courts apply in a 12(b)(6) motion for failure to state
a claim. Mixon v. Ohio, 193 F.3d 389, 399-400 (6th Cir. 1999) (citing Grindsatffv. Green,
133 F.3d 416, 421, (6th Cir. 1998)). A court must “construe the complaint in the light most
favorable to the plaintiff, accept all of the complaint's factual allegations as true, and
determine whether the plaintiff undoubtedly can prove no set of facts in support of the
claims that would entitle relief.” 133 F.3d 416, 421 (citing Meador v. Cabinet for Human
Resources, 902 F.2d 474, 475 (6th Cir. 1976)). Nonetheless, courts are only required to
accept “well pleaded facts as true, not the legal conclusions that may be alleged or that
may be drawn from the pleaded facts.” Blackburn v. Fisk Univ. 443, F.2d 121,124 (citing

4

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 5 of 11 PAGEID #: 836

L’Orange v. Medical Protective Co., 394 F.2d 57 (6th Cir.); Sexton v. Barry, 233 F.2d 220
(6th Cir.); Ryan v. Scoggin, 245 F.2d 54 (10th Cir.)).
Plaintiff attached evidence of his disability and two transcripts of court proceedings
to his first amended complaint (Doc. 8-1) and then refiled the same evidence of disability
as well as additional domestic court filings to his second amended complaint (Doc. 31-1).
Plaintiff then filed a supplemental complaint, attaching additional court pleadings (Doc.
33). Defendants filed a pleading asking the court to strike the supplemental complaint to

.v
/

which they attached a certified copy of the relevant domestic court record. (See Doc. 37r-

1). Th'e Court'ultimately ordered that the supplemental complaint be stricken. (Doc. 38).
'As a preliminary matter, by attaching these documents to the pleadings and motions
relative to the pleadings, the parties have implicitly asked the Court to take judicial notice
of the attachments. In ruling on a Rule 12(b)(6) or 12(c) motion, a court "may consider
the Complaint and any exhibits attached thereto, public records, items appearing in the
record of the case and exhibits attached to defendant's motion to dismiss so long as they
are referred to in the Complaint and are central to the claims contained therein." Brent v.
Wayne County Dep't of Human Services, 901 F.3d 656, 694 (6th Cir. 2018); Amini v.
Oberlin College, 259 F.3d 493, 502 (6th Cir. 2001). "Although typically courts are limited
to the pleadings when faced with a motion under Rule 12(b)(6), a court may take judicial
notice of other court proceedings without converting the motion into one for summary
judgment." Buck v. Thomas M. Cooley Law Sch., 597 F.3d 812, 816 (6th Cir. 2010); see
also Winget v. JP Morgan Chase Bank, N.A., 537 F.3d 565, 576 (6th Cir. 2008) (stating
that, on a motion to dismiss, a court "may take judicial notice of another court's opinion
not for the truth of the facts recited therein, but for the existence of the opinion, which is

5

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 6 of 11 PAG El D #: 837

V'

not subject to reasonable dispute over its authenticity"). Neither party has raised the issue
of the Court taking judicial notice of the documents previously referenced nor objected to
their consideration by the Court/ Accordingly, based on the present record, the^oyrt
concludes that it can take judicial notice of the state court transcripts (Doc. 8-1) and court
record (Doc.37-1) without converting Defendants’ Motion to Dismiss into a motion for
summary judgment. See id.; see also Gonzales v. CityofFostoria, No. 3:13-cv-796, 2014
U.S. Dist. LEXIS 2504, 2014 WL 99114, at *7 (N.D. Ohio Jan. 9, 2014) (taking judicial
notice of municipal court's docket sheets that establish that the plaintiff pleaded no contest
and was subsequently found guilty and that consideration of the state court decision and
docket sheets did "not convert the motion to dismiss to a motion for summary judgment");
Ghaster v. City of Rocky River, 913 F. Supp. 2d 443, 454-55 (N.D. Ohio 2012) (finding
that a court may take judicial notice of another court's docket where, inter alia, the plaintiff
referred to or attached the public record to the complaint); Slusher v. Reader, No. 2:18cv-570, 2019 U.S. Dist. LEXIS 51706 (S.D. Ohio Mar. 27, 2019)(same).^/
B. Defendants'Motion for Judgement on the Pleadings is well taken
Defendants contend, inter alia, that a 12(c) dismissal of Plaintiffs Second
v
Amended Complaint is proper because Plaintiff failed to state a claim for disability
discrimination. (Doc. 40 at 1). The undersigned agrees.
Title II of the Americans with Disabilities Act of 1990 (“ADA”) states that “(n]o
qualified individual with a disability shall, by reason of such disability, be excluded from
participation or denied the benefits of the services, programs or activities of a public
entity.” 42 U.S.C. § 12132. The Rehabilitation Act states that “[n]o otherwise qualified
individual with a disability in the United States ... shall, solely by reason of her or his

6

•r

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 7 of 11 PAG El D #: 838

disability, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any program or activity receiving Federal financial assistance.” 29
U.S.C. § 794(a).
in order to prove a public program or service violates Title II of the ADA, a plaintiff
V

. must show: 1) that he is a qualified individual with a disability: 2) that he was either
/

excluded from participation in or denied the benefits of a public entity’s services,
programs, or activities, or was otherwise discriminated against by the public entity; and
3) that such exclusion, denial of benefits, or discrimination was by reason of his disability.
See 42 U.S.C. § 12132; see also Barrilleaux v. Mendocino County, 61 F.Supp. 3d 906,
915 (N.D. Cal. 2014), citing Weinreich v. Los Angeles Cnty. Metro. Transp. Auth., 114
F.3d 976, 978 (9th Cir. 1997). The same standard applies to a plaintiff who seeks to
establish a claim under section 504 of the Rehabilitation Act, in addition to showing the
program receives federal funding. See Center v. City of W. Carrollton, 227 F. Supp. 2d
863, 867 (S.D. Ohio 2002) and Davis v. Flexman, 109 F. Supp. 2d 776, 785 (S.D. Ohio
1999). “Title II requires only ‘reasonable modifications that would not fundamentally alter
the nature of the service provided,’ not ‘to employ any and all means to make judicial
services accessible to persons with disabilities.’” Bedford v. Michigan, 722 F. App'x 515
519 (6th Cir. 2018) quoting Tennessee v. Lane, 541 U.S. at 531-32.
Here, Defendants argue that the court’s refusal to allow Plaintiff to attend the June
20, 2017 hearing via telephone was not because of his disability. (Doc. 48 at 5). In this
regard, Defendants contend that the court’s denial of Plaintiffs request did not
demonstrate: “(1) that he was either excluded from participation in or denied the benefits
of the Juvenile Court’s services, programs, or activities or was otherwise discriminated

7

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 8 of 11 PAGEID #: 839

against” or that any “exclusion, denial of benefits, or discrimination was by reason of his
disability." (Id.). Defendants explain that the court denied Plaintiffs request not because
of his disability, but because Plaintiffs “remote appearance would ‘interfere with the ability
of the court to properly observe and assess the credibility of Mr. Bowie.” (Doc. 48 at 7
citing Doc. 37-1 at 6). Therefore, Defendants conclude that the decision to deny Plaintiffs
request to attend the hearing remotely did not violate Title II of the ADA or §504 of the
RA. (Doc. 48 at 5). Furthermore, Plaintiffs counsel did not even request that Plaintiff
attend remotely until the day of the hearing. ^e^Doc. 8-1, transcript, p7-9)T^^^

u.

f ■ V'

Defendants further note that Plaintiff then filed a motion to .waive his appearance
at that hearing and that the court granted this motion because of his disability, thus making
an accommodation. (Doc. 48 at 4 and Doc. 40 at 9). Plaintiff also had representation at
the June 2017 hearing as his attorney was present. (Doc. 40 at 2). Additionally,
Defendants note that Plaintiff was allowed to attend other hearings via telephone,
including the July 2018 hearing. (Id. at 3). Such instances of accommodations further
suggest that Defendant’s denial of Plaintiffs request to attend the June 2017 hearing
remotely was not because of Plaintiffs disability. //
In his Opposition to Defendants’ 12(c) Motion for Judgment on the Pleadings (Doc.
44), Plaintiff seems to conclude that Defendant’s refusal to allow remote attendance at
the June 2017 hearing violated the ADA and RA. He cites the Title II factors that a plaintiff
must show to prove an ADA violation, but he does not explain how Defendant’s conduct
satisfies these factors. (Id. at 8). Plaintiff does not rebut the Defendants’ argument that
refusal to allow for remote participation in the June 2017 hearing was not because of
Plaintiffs disability, but because of the necessity that Plaintiff be present at that specific

8

I

4

t-'tf ^

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 9 of 11 PAGEID #: 840

hearing to evaluate his credibility. Plaintiff does not dispute that Defendants made various
accommodations to Plaintiff in the past, and that he had an attorney present at the June
2017 hearing. (Id. 4). Plaintiff also does not dispute that Defendant Kelley waived his
appearance at the June 2017 hearing. He takes the position, however, that because the
waiver resulted in Plaintiffs filings being dismissed and Plaintiff not getting to testify at the
hearing, he was excluded from the hearing. (Id. at 9-10).
i,

9sp ,/

As noted by Defendants, Title II requires "reasonable modifications that would not

s^ftgjdameptally alter the nature of the services provided.” (Doc. 40 at 10 quoting

\C-

L

\

Tennessee v. Lane, 541 U.S. 59, 124 S.Ct. 1978, 158 L.Ed.2d 820 (2004)). Here, the
Hamilton County Juvenile Court provided reasonable accommodations to Plaintiff by
granting his motion to wajve appearance at the June 2017 hearing, and allowing Plaintiff
to appear via telephone in prior and subsequent matters. Defendants, however,
determined that Plaintiffs actual appearance at the June 2017 hearing was necessary.
His actual appearance was necessary because they did not believe that a remote
appearance would allow for the Juvenile Court to properly perform its functions. The
hearing in question was a contempt hearing and Magistrate Kelley determined she
needed Plaintiffs physical presence and allowing an appearance via video or telephone
would “interfere with the ability of the court to properly observe and assess the credibility
of Mr. Bowie.” (See Doc. 37-1, PAGEID# 510,June 20, 2017 Journal Entry). As noted by
Defendants, a contempt proceeding also involves the necessity of the court’s being able
to judge a party’s demeanor and character, both of which prove difficult or in some cases
impossible if the party is not present.

9

—V r

t

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 10 of 11 PAG El D #: 841

Because Plaintiff cannot meet all the elements of an ADA claim/RA claim, Plaintiffs
claims must fail as a matter of law. In light of the foregoing, Defendants’ motion is welltaken in and they are entitled to judgment as a matter of law.2
III.

Conclusion

For the reasons stated, it is herein RECOMMENDED that Defendants’ Motion for
Judgment on the Pleadings (Doc. 40) be GRANTED; and this matter be CLOSED.

s/ Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

2 Additionally, Judge Barrett’s prior order permitted Plaintiff to bring a claim against Hamilton
County, Ohio and the Hamilton County Juvenile Court over the recommendation of the undersigned to the
contrary. Defendants have again raised the issue that Hamilton County and the Juvenile Court are not
proper defendants as they are not entities capable of being sued. To the extent the District Judge would
revisit this issue, the Defendants have properly set forth their argument (see Doc. 40, p12-14) and the
undersigned agrees. In order to sue a court a plaintiff must sue a person as a representative of the court,
not sue the court. In order to sue a county a plaintiff must sue a person or entity, like the Board of County
Commissions, not the geographic location. The entities themself remain incapable of being sued. Thus,
the undersigned again recommends that all claims against Hamilton County and the Hamilton County
Juvenile Court be dismissed for this reason as well as for the reasons set forth above.

10

V

Case: l:18-cv-00395-MWM-SKB Doc #: 51 Filed: 05/31/20 Page: 11 of 11 PAGEID #: 842

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
BRANDON BOWIE
Case No. 1:18-cv-395
Plaintiff,
McFarland, J.
Bowman, M J.

v.
HAMILTON COUNTY
JUVENILE COURT, etal.
Defendants.
NOTICE

Pursuant to Fed. R. Civ. P. 72(b), any party may serve and file specific, written
objections to this Report and Recommendation (“R&R”) within FOURTEEN (14) DAYS
of the filing date of this R&R. That period may be extended further by the Court on timely
motion by either side for an extension of time. All objections shall specify the portion(s)
of the R&R objected to, and shall be accompanied by a memorandum of law in support
of the objections. A party shall respond to an opponent’s objections within FOURTEEN
(14) DAYS after being served with a copy of those objections. Failure to make objections
in accordance with this procedure may forfeit rights on appeal. See Thomas v. Am, 474
U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

11

r

A

1

James J. Whitfield (0080720)
Counsel for B. Bowie

: s * w se i!ir mi

COURT OF COMMON PLEAS
HAMILTON COUNTY JUVENILE COURT

r;

KiMOO:.} NuillHVH
03‘if A
IN RE:

*

* CASE NO.: FI 1-803X
♦

ALAYAH BOWIE
ARIELLE BOWIE

*

* OBJECTIONS TO MAGISTRATE’S
* DECISION (Amended)

*
*
*
*****************************

Now comes Brandon Bowie (“Father”), by and through counsel, and pursuant to Juv. R.
40 hereby submits the instant Objections to the Magistrate’s decision issued on June 20, 2017
and in support states the following:
1.

Father lives in Columbus, Ohio and the Social Security Administration’ determined that

Mr. Bowie is disabled under section 1614(a) (3) (A) of the Social Security Act nearly seven (7)
years ago. His documented physical limitations make it impractical and incredibly burdensome
to travel. Though the Court waived Father’s requirement to be present in Court, it refused to
—,•

--allmwhim-to-partieipate-in-the-proceedings-improperly-d-i-sm-issing-hi-s-pending-eontempt-motiom
and allowing him to defend allegations of contempt from the opposing party.
2.

On 6/20/2017, the court did not reasonably accommodate Father. Mr. Bowie was denied

the opportunity to testify in a visitation/contempt hearing without notice and his motions/filings
were dismissed which was an egregious act by the court. These acts were in violation of federal
mandates which state that the courts (and other government entities) must try to abide by the
preferenc e of the person needing an accommodation. The American Disability Act requires
public entities to give “primary consideration to the requests of the individual” in deciding what
auxiliary aid or service is necessary to ensure that communications with persons with disabilities
are as effective as with other persons. 35 C.F.R. §35.160(b) (2). The ADA further outlines that
when possible to reasonably accommodate someone who is disabled, the courts have a duty to
comply. In this matter Father was denied reasonable accommodations his rights as a disabled
individual were clearly violated.

A.

3.

The Court went on to find Father in contempt of parenting time order despite an

admission from Maya Austell (“Mother”) that she received notice of an extended visit several
weeks in advance of the alleged contempt. Further the Court levied a $900.00 fine (and attorney
fees) against an indigent party who acted without malice.
4.

Despite knowledge of Father’s travel limitations and without receiving any additional

evidence or testimony, Father’s Motion to Modify parenting time was dismissed while his
parenting time was modified, per Mother’s motion, essentially eliminating parenting time
between Father and his daughters.
WHEREFORE, Brandon Bowie respectfully requests:
That this Court set this matter for hearing before the Judge, that this Court find the objections
well taken, that this Court modify or set aside the order of June 20,2017 to truly reflect the best
interests of the children and all the relevant facts of the case and that this Court grant such and
other further relief as the nature of this case requires.
Respectfully submitted,

MmvrT'Wh itfidd fflOgfffcoT
Attorney for B. Bowie
119 East Court Street
Cincinnati, Ohio 45202
Telephone (513)290-0822
Facsimile (513) 961-3349
whitfieldlaw@outlook.coni

CERTIFICATE OF SERVICE
I hereby certify that service of the instant Objections was requested via the Clerk of Courts to all parties
and/or counsel, namely James Hartke via electronic transmission on or immediately following the date of filing.

iFimiesj/Whitfield

t

(

e,

J

/

NDVIEW FAMILY PRACTICE
1550 W. 5TH AVENUE
COLUMBUS, OHIO 43212-2473

TELEPHONE; (614) 488- 7929
CHARLES B. MAY D.O.
STEPHEN ALTIC, D.O.

FAX: (614) 488-0226
HILARY McCORD, PA-C
COURTNEY ROLAND, PA-C

January 12,2017
Brandon Bowie
921 N. Nelson Rd.
Columbus, Ohio 43219
DOB: 10/22/1986
Dear Mr. Bowie:
You have been under my care for a number of years for an industrial injury that resulted in ulnar
nerve entrapment thoracic outlet syndrome and left shoulder/scapular dyskinesia. These conditions
continue to impair the function in your left arm with vascular impairment as well as neurologic
impairment referable to the ulnar nerve. This has resulted in some muscular issues for you as well
and strength loss in the left arm. I had previously indicated that you should limit your driving to no
more than 20-30 miles at a time and certainly commercial driving at less than 20 miles. It is my
understanding you have been required to show up personally for hearings in Cincinnati relative to
issues regarding child support. It is my opinion that your neurologic and vascular problems in the left
arm limit your ability to drive as I have stated above. It might be more beneficial for you, therefore,
to be able to have videoconferencing or hearings by way of video.
Sincerely,

Stephen Aitic, D.O.

